Department of Health and Human Services
        OFFICE OF
   INSPECTOR GENERAL




USING COMMUNIW RESOURCES FOR
  EDUCATING AND TRAINING JOBS
          PARTICIPANTS




                OCTOBER   1992
                      OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services’ (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by three OIG operating components: the Office of Audit Services, the
Office of Investigations, and the Office of Evaluation and Inspections. The OIG also informs
the Secretary of HHS of program, and management problems, and recommends courses to
correct them.

                          OFFICE OF AUDIT SERVICES

The OIG’S Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the Department.

                          OFFICE OF INVESTIGATIONS

The OIG’S Office of Investigations (01) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions,
administrative sanctions, or civil money penalties. The 01 also oversees State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid program.

              OFFICE OF EVALUATION AND INSPECI’IONS

The OIG’S Office of Evaluation and Inspections (OEI) conducts short-term management and

program evaluations (called inspections) that focus on issues of concern to the Department,

the Congress, and the public. The findings and recommendations contained in these inspection

reports generate rapid, accurate, and up-to-date information on the efficiency, vulnerability,

and effectiveness of departmental programs.


OEI’S Atlanta Regional Office staff prepared this report under the direction of Jesse J. Flowers,

Regional Inspector General, and Chris Koehler, Deputy Regional Inspector General. Principal OEI

staff included:


ATLANTA                                      HEADQUARTERS

Joe Townsel, Project Leader                  Ruth Folchman

Peggy Daniel

Betty Apt


To obtain a copy of this report, call the Atlanta Regional Office at (404) 331-4108.

    Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL




    USING COMMUNITY RESOURCES FOR

      EDUCATING AND TRAINING JOBS

              PARTICIPANTS





              OCTOBER   1992   OEI-04-90-00341
I
              EXECUTIVE                         SUMMARY

PURPOSE

To describe effective practices in using community resources for educating and
training Job Opportunities and Basic Skills training program participants.


BACKGROUND

The Family Support Act of 1988 required States to implement the Job Opportunities
and Basic Skills (JOBS) program--a comprehensive work program for recipients of Aid
to Families with Dependent Children. States must provide a combination of required
and optional education, training, and employment services to help JOBS participants
avoid long-term welfare dependence. The act prohibited States from using JOBS
funds to pay for such selvices when they are available free of charge or supported by
other public funds. The act allowed States to begin program operations as early as
July 1989, but it required them to begin by October 1990. Partly because the JOBS
program is still relatively new, little information exists on State or local successes in
using available non-JOBS resources.

In order to identify potentially effective practices, we surveyed 27 States and 12 local
communities. The 27 States were those that had approved JOBS plans older than 6
months. We selected the 12 communities from a list of 32 that State JOBS
administrators identified as having effective practices. We then surveyed the selected
communities using a standardized questionnaire to describe their practices in providing
education, job skills training, and job readiness training--three of four mandatory JOBS
components.

We did not independently evaluate JOBS programs or cost effectiveness in the
selected communities. Our objective was to identi~ and describe promising program
approaches that other JOBS agencies could use. To identify promising practices
among the 12 programs, we relied on information provided by JOBS administrators in
each selected community. We identified three factors that contributed to program
success. The factors are not, however, unique to community funded programs. We
found the reputedly successful program practices to be relatively straightforward.
Many of which could easily be adopted by other jurisdictions. This report provides
information on potentially effective community practices in using such resources. It
provides useful leads using community resources, such as community colleges and
business associations, that State and local administrators can use to strengthen their
JOBS programs. While the type and amount of resources may differ among
communities, all communities have various public resources and business communities
that potentially could support local JOBS programs.




                                            1
FACPORS CONTRIBUTING TO THE SUCCESSFUL                   USE OF COMMUNITY
RESOURCES FOR JOBS PROGRAMS

Interagency Cooperation

JOBS administrators deemed cooperation among Federal, State, and community
agencies to be vitally important for successful JOBS programs. The JOBS
administrators in each community we surveyed said they effectively used the resources
of such agencies to enhance education and training opportunities for JOBS
participants. For example, through a cooperative program of a State college, county
school systems, State agencies for education and human services, and the U.S.
Department of Education, one community made education opportunities available to
JOBS participants in 23 counties. Another community program that served an
estimated 200 teen parents returned 129 drop-outs to school. This achievement
resulted from use of resources from two Federal, two State, and two county programs.
The cooperating agencies provided funds, facilities, equipment, instructors, tutors,
counselors, and support services such as child care and transportation.


Bivate Sector Resources

Private sector resources boosted the quality of training in two selected communities.
The JOBS administrators in these communities partly relied on resources of private
corporations, business associations, and volunteers to provide job skills training to
JOBS participants. The resources included computer hardware and software,
internships, special loans, and volunteer instructors, tutors, and consultants. Such
cooperation by private organizations added real work life experiences to the training
of JOBS participants.


Supprt Services

Effective support services both allowed and encouraged participation in JOBS
education and training. All 12 selected community JOBS agencies provided support
services to JOBS participants. However, seven advised us of particularly promising
techniques for providing child care, transportation, and other services. Without such
support, many AFDC recipients would not participate in the JOBS program. For
example, three communities provided on-campus, quality child care to encourage
participation. Another community made housing subsidies contingent on the academic
achievement of JOBS participants in education programs. Such support encouraged
JOBS participants to attend education and training classes.




                                           ii
                  TABLE                 OF CONTENTS
EXECUTIVE     SUMMARY


INTRODUCTION.  USING COMMUNITY RESOURCES FOR EDUCATING
AND TRAINING JOBS PARTICIPm    . . . . . . . . . . . . . ..s”””””””. ””””””l


FACTORS CONTRIBUTING               TO SUCCESSFUL                                      CO~                                                  PROGRAMS

   Interagency Cooperation        . . . . .. O. DO. . . . . . . . . . . . . .                                             ....”o””.”.0”s.0”5


   Private Sector Resources       . . . . . . . . . . . . . . . . . . . . . . . . . . . . ....”””””o”o08

    Support Services    . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .. ”. ”””” ”””” ”.”10


APPENDICES:      COMMUNITY            PROGRAM                             PROFILES

    f%    Education Programs

           Claremore, Oklahoma . . . . . . . .                        .   .   .   .   .   .   .   .   .   .   .   .   .   .    .   .   .   .   ...””.      .-”-A-1
           Clovisand Portales, New Mexico                             .   .   .   .   .   .   .   .   .   .   .   .   .   .    .   .   .   .   . . . ...” .*-A-3
           Salt Lake City, Utah . . . . . . . . .                     .   .   .   .   .   .   .   .   .   .   .   .   .   .    .   .   .   .   . . . . . ..”” ”A-s
           Winter Park, Florida . . . . . . . . .                     .   .   .   .   .   .   .   .   .   .   .   .   .   .    .   .   .   .   . . . ...”” ““A-7

    B:     Job Skills Training

           Beatrice, Nebraska . . .       .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .    .   .   .   . . . . . . ..”” oB-1
           Boston, Massachusetts .        .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .    .   .   .   . . ...”.     .-”-B-3
           Hartford, Connecticut .        .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .    .   .   .   ...”.””       ““””B-5
           Pittsburgh, Pennsylvania       .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .    .   .   .   . . . . . . . . ..”B-7

    c      Job Readiness Training

           Boston, Massachusetts . . . . . . .                    .   .   .   .   .   .   .   .   .   .   .   .   .   .    .   . . . . . . . . . . .*.-C-1

           Cincinnati, Ohio . . . . . . . . . . .                 .   .   .   .   .   .   .   .   .   .   .   .   .   .    .   ........-..””-C-3

           Ft. Myers, Florida . . . . . . . . . .                 .   .   .   .   .   .   .   .   .   .   .   .   .   .    .   . . . . . ...” SC-”-c-s

           Janesville and Beloit, Wisconsin                       .   .   .   .   .   .   .   .   .   .   .   .   .   .    .   . . . . . . . . . .*.--C-8

                         INTRODUCTION

THE JOBS PROGRAM

The Family Support Act of 1988 (Public Law 100-485) required States to implement
the Job Opportunities and Basic Skills (JOBS) training program. The purpose of
JOBS is to provide needy families with education, training, and employment that will
help them avoid long-term welfare dependence. States must implement JOBS as a
condition of participation in the Aid to Families with Dependent Children (AFDC)
program. Within the United States Department of Health and Human Services, the
Administration for Children and Families (ACF) is responsible for the JOBS program.

States provide JOBS participants a combination of mandatory and optional services
designed to aid their progress toward becoming self-supporting.

First, States must provide four services to JOBS participants. The four mandatory
program components are (1) education, (2) job skills training, (3) job readiness
training, and (4) job development and placement.

Second, States must provide support services for JOBS program participants. Support
services include child care, transportation, and funds for certain work-related expenses.

Third, States must provide at least two of four optional services. The optional services
are (1) job search, which includes counseling and training in job-seeking, (2) on-the-job
training, (3) work supplementation (subsidized jobs), and (4) work experience.

Finally, States may elect to provide other education and training services such as
postsecondary education.

The act allowed States to begin program operations as early as July 1989, but it
required them to begin operations by October 1990. The act further required each
State to submit a plan to ACF showing their planned education and training activities.


COMMUNITY        RESOURCES

The Family Support Act of 1988 specified target populations, participation goals, and
a choice of education and training services. States could decide how they would make
education and training services available to targeted JOBS participants. The act,
however, prohibited States from using JOBS funds to pay for services that are free of
charge or supported by other public funds. Therefore, it is imperative that local JOBS
administrators identi~ and use non-JOBS education and training resources available in
their community.




                                            1

JOBS agencies identi& communi~resources           through avarie~ of methods. Those

methods include identifying resources through local task forces, coordinating councils,

and community networking. JOBS administrators also negotiate directly with a range

of agencies in the community to gain access to education, training, and support

services for JOBS participants. Available community resources typically include public

schools, technical schools, colleges, universities, and public and private social service

agencies.


State JOBS administrators we sumeyed considered some communities to be highly

effective in using local education and training resources in their States. Yet, little was

known about the effective program practices outside the States where they were

operated. i% a result, Federal and State policymakers have limited evidence on a

national level to show what practices work best in providing JOBS services to AFDC

recipients. The JOBS program continues to evolve substantially as States develop new

programs. Successful ;omrnunity program practices could (1) serve as models for

other communities, and (2) provide needed information to JOBS administrators for

improving future programs.



SCOPE and METHODOLOGY


This report provides information on promising community program practices for

including non-JOBS resources in education and training programs for JOBS

participants. To identify potentially effective practices in providing education and

training services to JOBS participants, we surveyed 27 States and 12 local

communities. The 27 States were those that had approved JOBS plans older than 6

months. We collected information from States and communities in stages during

August 1990 through December 1991.




                                 STATES SURVEYED
 ARKANSAS               IOWA                      NEVADA             RHODE ISLAND
 CALIFORNIA             KANSAS                    NEW HAMPSHIRE      SOUTH CAROLINA
 COLORADO               MARYlAND                  NEW JERSEY         SOUTH DAKOTA
 CONNECTICUT            MASSACHUSEITS             NEW MEXICO         UTAH
 DELAWARE               MICHIGAN                  OHIO               WEST VIRGINIA
 FLORIDA                MINNESOTA                 OKLAHOMA           WISCONSIN
 GEORGIA                NEBRASKA                  PENNSYLVANIA



We asked each State JOBS Director to identify local communities which were
effectively using State and local resources for meeting three of the four mandatory
JOBS program components--education, job skills training, and job readiness training.
We excluded the fourth mandatory component, job development and placement, from
our analysis because State and local programs were less than two years old and many



                                             2

JOBS participants had not completed planned education and training activities.
However, where provided by JOBS administrators, we included information on job
placements simply to indicate potential effects of education and training program
practices. Job development and placement focuses on identifying un-subsidized job
openings. It further includes the marketing of JOBS participants and securing job
interviews for them.

The 27 State Directors identified 32 local communities they believed were operating
promising programs that used community resources to educate and train JOBS
participants. The State administrators based their opinions on promising programs on
(1) community progress in educating, training, and placing JOBS participants, and (2)
overcoming barriers to participation in program activities. From the 32, we selected
12 communities that provided wide geographic dispersion and a mixture of rural and
urban populations.



II                     COMMUNHES         SELECTED        FOR STUDY
     HARTFORD, CT                                  CINCINNATI, OH

     FT. MYERS, FL                                 CLAREMORE, OK

     WINTER PARK, FL                               PllTSBURGH, PA

     BOSTON, MA *                                  SALT IAKE CITY, UT

     BEATRICE, NE                                  JANESVILLE and BELOIT, WI

     CLOVIS and PORTALES, NM


     * Two community. JOBS agencies selected   I
Ii



We used a standardized questionnaire to survey the 12 selected communities and
obtain descriptions of their program practices. We designed the questionnaire to
obtain information on each community program practice and results in providing
education and training opportunities to JOBS participants. As needed, we conducted
telephone intemiews with JOBS program staffs in the selected communities to obtain
clarification of and elaboration on their responses to the mailed questionnaire.

We did not independently evaluate JOBS program or cost effectiveness in selected
communities. Our objective was to identify and describe promising program
approaches that other JOBS agencies could use. While the type and amount of
resources may differ among communities, all communities have various public
resources and business communities that potentially could support local JOBS
programs.

We classified reported effective practices in each of the 12 selected communities by
the three mandatory JOBS components included in our study--education, job skills
training, and job readiness training. Often, a community’s description suggested




                                               3

effective practices in more than one of the mandatory components. In such instances,
we cataloged the practice by the component that seemed to be most affected.

      --     The education component includes, but is not limited to high school or
             high school equivalency certification, basic and remedial education for a
             literacy level of at least grade 8.9, and English proficiency. Appendix A
             summarizes the effective practices used by four of the 12 selected
             communities for providing education opportunities to JOBS participants.

      --     The job skills training component focuses on vocational training. The
             training includes skills such as automotive repair, welding, word
             processing, and food preparation. Appendix B summarizes the effective
             practices used by four of the 12 selected communities for providing job
             skills training opportunities to JOBS participants.

      . .	   Job readiness training is intended to help JOBS participants understand
             workplace expectations and acquire attitudes and behaviors needed for
             obtaining and keeping a job. For example, participants are counseled on
             the importance of being on time for work, and how to interact with
             other people. Appendix C summarizes the effective practices used by
             four of the 12 selected communities for providing job readiness training
             opportunities to JOBS participants.




                                           4

FACTORS    CONTRIBUTING                                        TO

SUCCESSFUL     COMMUNITY

PROGRAMS

INTERAGENCY        COOPERATION

The JOBS administrators we interviewed stressed the importance of cooperation
among Federal, State, and community agencies in educating and training JOBS
participants. About one-fourth of the State and community JOBS administrators we
interviewed said poor cooperation and coordination among social and welfare agencies
is a major barrier to providing education and training for JOBS participants. Below,
we briefly highlight some community practices for using non-JOBS resources that local
JOBS administrators believed were effective in providing education, job skills training,
and job readiness training to JOBS participants. Non-JOBS resources were provided
by Job Training Partnership Act (JTPA) agencies, the U.S. Department of Education,
State and County Departments of Education, various State and local education
facilities (including public schools, technical schools, colleges, and universities),
community action agencies, the U.S. Department of Housing and Urban Development,
and others.


E1.kcation Oppriuwtm
                   “ “ for JOBS Partici.pan~

In Claremore, Oklahoma, the State Department of Human Services obtained a
cooperative agreement for JOBS participants to enroll in an educational outreach
program operated by Rogers State College. The program, called Educational
Opportunity Center, made educational opportunities available to JOBS participants in
23 eastern Oklahoma counties. The U.S. Department of Education provided funding
for the Educational Opportunity Center. Further, numerous public schools, vocational
schools, colleges, and universities in eastern Oklahoma provided counseling, financial
aid, facilities, and instruction in academic and vocational curriculums. Finally, the
State Departments of Human Services and Adult and Continuing Education actively
promoted, sponsored, and coordinated program activities for JOBS participants.

Partly as a result of Claremore’s cooperative program, about 30 of 200 JOBS
participants (about 15 percent) in Rogers County obtained GED certificates during
the State fiscal year ending June 30, 1991. Furthermore, because of their participation
in the program, 76 JOBS participants obtained employment--exceeding a program goal
of 42 placements.

Likewise, in Winter Park, Florida, the Orange County JOBS agency coordinates a
Teen Parent Program that includes resources from at least two Federal, two State, and
two county programs. The resources are provided by AFDC, JTPA, Florida
Department of Education, Florida Department of Health and Rehabilitative Services,



                                            5

Orange Coun~Health     Department, and Orange Coun~ School System. The Teen
Parent Program seines about 200 teenaged parents annually, helping them obtain a
high school diploma or GED certificate.

The Orange County JOBS agency formed an advisory committee represented by staff
from thevarious agencies and local schools. Through this cooperative linkage, the
JOBS agency returned to school about 1290fan estimated 200teen parents during
Fiscal Year 1990. Ofthose, 46continued their education until they earned a high
school diploma or GED certificate. Twenty-five of the 46 continued their education
into vocational school, community college, or a 4-year college. Because of its success
in preventing high school dropouts, the Winter Park Teen Parent program received a
1990 Davis Productivity Award--a State award for significant productivity
improvement.


Job Skilh 11-aining

In Beatrice, Nebraska, the Nebraska Department of Social Services, Nebraska
Department of Labor, and Southeast Community College cooperatively sponsor an
8-week summer training program for JOBS participants. The program, called Parents
of All Ages, provides training in word processing, clerical duties, and similar office
skills. It also includes training in basic academic, human relations, and household
management skills.

The three sponsoring agencies provide funding, instructional facilities, training,
housing, child care, and youth activities for JOBS participants. In doing so, the three
agencies have obtained cooperative assistance from the YMCA JTP~ and a
Community Action Agency to care for and provide summer jobs as appropriate for
children of parents enrolled in the 8-week program. The program is unique in that it
provides housing for parents and children during the training. Depending on their
ages, the children are engaged in child care or youth activities while parents receive
job skills training. This practice minimizes concern of JOBS participants for their
children.

According to Beatrice JOBS administrators, Parents of All Ages has been very
successful. The program goal was that 75 percent of all JOBS participants would
obtain employment after completing the training or continue to further their
education. Using this criteria, Beatrice JOBS administrators reported an 83 percent
success rate for 30 participants in the 1989 program. Employment statistics for 1990
were not available, however, 14 of 23 JOBS participants enrolled in a college level
program.




                                            6

Job Readiness lhzining

Through a cooperative arrangement, the JOBS agency in Ft. Myers, Florida refers
JOBS participants to a 3-week Employability Skills Training Program operated by
JTPA. ~eprogram       objectives aretoteach   pafiicipants howtosearch   for, apply for,
and keep a job. The program offers JOBS participants one week of instruction on
employability and two weeks on job search. As needed, participants may be given
additional on-the-job or remedial training. In addition, the U.S. Department of
Housing and Urban Development has worked cooperatively with the program by
providing a subsidized housing grant for training participants.

Ft. Myers JOBS administrators said the program has been effective in placing
participants in jobs. However, specific information was not available showing separate
results for JOBS participants who obtained job readiness training through the
Employability Skills Training Program. The JOBS administrators estimated that in
1989, 63 percent of the JOBS participants in an umbrella training program called “Job
Club,” obtained employment (226 of 356 participants). The job placement rate in
1990 was 56 percent (171 of 305 participants). In 1991, the placement rate was 45
percent (130 of 289 participants). The statistics for the Job Club include JOBS
participants who attended the Job Club employability training program. The JOBS
administrators partly attributed the declining percentage in placements to a higher
percentage of students who needed more extensive training.




                                            7
PRIVATE SECTOR RESOURCES

Private sector resources may boost the quality of training for JOBS participants. Two
of the 12 selected communities made extensive use of private corporations, various
business associations, and individual volunteers to provide job skills training for JOBS
participants. The two are Boston, Massachusetts and Hartford, Connecticut. In both
communities, the cooperation of private organizations added “real work life”
experiences to the training provided to JOBS participants.


l+ivate Sector Supprt Adds Reahm to lYainingfor JOBS Partic@anti.s

The Massachusetts Department of Public Welfare refers JOBS participants in Boston
to Training, Inc. for job skills training. Training, Inc., founded by the Greater Boston
YMCA relies on State grants to fund skills training programs, but the grants must be
matched by private sector financial support.

Private corporations support the training program in various ways. For example, IBM
provided hardware (computers, printers, typewriters, etc.), software, and staff training
valued at $200,000. Likewise, Lotus Development Corporation sponsored five
Training, Inc. internships, assisted with curriculum development, provided financial
support, and donated Lotus 1-2-3 software. Some firms also provided staff to teach
various evening classes, including job search techniques. Finally, firms periodically
hosted graduation luncheons to welcome graduates into the business world.

Individual volunteers also support the Training, Inc. program. Volunteers made
financial contributions and served as tutors, advisors, job search coaches, employer
liaisons, and fund-raisers. Over 60 volunteers from 40 Boston companies have shared
their knowledge and technical expertise since the program began in 1984. The
volunteers, some of whom are graduates of Training, Inc., contribute more than
$70,000 in work hours annually.

More than 200 local employers have hired graduates of Training, Inc. A local bank,
for example, has employed 25 graduates of Training, Inc. since 1986. The bank has an
86 percent retention rate with these employees. In 1990, Training, Inc. graduated 150
of its 200 JOBS participants. About 66 percent of those graduating participants found
full-time jobs with benefits. As of October 1991, JOBS administrators said about 80
percent of those who found jobs retained them. Further, about 85 percent of those
obtaining jobs received raises and/or promotions within their first year of employment.
As of September 1990, the average starting salary for JOBS participants was $8.23 per
hour.




                                            8

l%vate Sector Support Hel@ed Bepre   JOBS Partkijwats for Se~-Employment

An Entrepreneurial Training Program at Hartford, Connecticut is designed to teach

business skills to JOBS participants. The goal is to help them become self-employed.

The program is financed by the Connecticut Department of Income Maintenance, and

is based at Hartford College for Women. Program costs are relatively low because the

program uses resources of various private corporations. A few examples are the

Hartford Economic Development Corporation, Connecticut National Bank, and

various business associations, such as the Chamber of Commerce and the National

Association of Professional Service Women.


Cooperative agreements with such organizations provide JOBS participants access to

workshops, conferences, and other special events. Staff from private organizations

voluntarily teach technical business courses, provide support and technical assistance,

and serve as mentors for JOBS participants. For example, staff of the Hartford

Economic Development Corporation provide individual counseling and assistance to

JOBS participants on preparing their business plans, completing loan applications, and

solving business problems. Staff of cooperating firms continue their consultations and

general support of participants for up to 6 months after graduation.


Similarly, the Hartford Economic Development Corporation and Connecticut National

Bank developed an innovative loan program to provide start-up capital for JOBS

participants who complete the training program. To qualify for the loans, participants

must have graduated and must have a detailed business plan approved by the

Hartford Economic Development Corporation, These requirements replace

traditional requirements that a borrower have collateral and a sound credit history.

Generally the loans, made by Connecticut National Bank, range from $5,000 to

$10,000. The loan repayment plan allows interest-only payments for the first year of

the loan.


The Entrepreneurial Training Program has produced positive results for JOBS

participants (also for AFDC recipients who participated prior to implementation of

JOBS). Between March 1, 1988 and June 30, 1991, 64 of 91 participants (70 percent)

graduated from the program. About 45 percent of those graduates became self-

employed. Another 40 percent of the graduates got jobs after realizing that self-

employment was not their best option. About five percent enrolled in another

educational or training program to better prepare for self-employment. Another five

percent were completing their business plans. Local JOBS administrators could not

determine the status of the final five percent.





                                           9

Effective support services both allowed and encouraged participation in JOBS
education and training. Readily available support services such as transportation, child
care, and funding supplements are key determinants of whether or not needy families
participate in JOBS education and training programs. About two-thirds of the State
and community JOBS administrators we interviewed cited a lack of transportation and
child care as a major barrier to participation. Some community JOBS administrators
said that without such support services, many needy families would be unable to
participate in available education and training sewices.

While such support services are often difficult to provide, some communities have
developed innovative, effective programs to mitigate the barrier. We highlight three
examples of such practices below.


Iimovative l%ogram I?actices Increase Supply of Child Care J%oviden

The Rock County (Janesville and Beloit) Wisconsin JOBS administrators designed an

innovative program to increase the supply of child care providers. Increasing the

availability of child care services increases the potential for needy families to attend

job readiness training offered through the Rock County JOBS program. The rural

community had a shortage of licensed child care providers--a barrier to needy families

participating in JOBS training. Further, local residents who could be trained and

certified as child care providers lacked transportation to certification training at a

technical school, located outside their rural community.


As part of the Rock County program, the JOBS administrators and the local

Community Action Agency arranged a certification training site in the rural

community. This innovative approach eliminated a transportation barrier for potential

child care providers. As a result, 21 people completed the child care classes in Fiscal

Year 1990. Some of these people are now active child care providers in the

community. Further, the in-home services they provided enabled JOBS participants to

attend job readiness training that was available to them through the program.


In another community, Project Forward, operated by Clovis and Portales, New Mexico

JOBS administrators, makes child care available to education and training participants.

The Project Forward program administrators provide the support services in a manner

that does more than just allow participation. The program stimulates and encourages

participation and high achievement in education activities.


To mitigate a shortage of available child care providers, the JOBS agencies in Clovis

and Portales have taken two significant steps, First, JOBS administrators negotiated

with two educational institutions to establish on-campus child care centers. Second,

they made it more attractive for child care providers to accept JOBS participants’

children. The JOBS agencies did that by (1) making disbursements for services



                                            10
directly to child care providers rather than to JOBS participants, and (2) expediting
disbursements so that providers are paid within the first 10 days of each month.


Supprt Services ~ovide Incentive for High Academic Achievement

The JOBS agencies in Clotis and Portales have also arranged for certain JOBS
participants to obtain housing subsidies from the U.S. Department of Housing and
Urban Development (HUD). In both communities, HUD defrays housing expenses
for JOBS participants who meet special academic-based criteria. For example, a
participant must have completed two years of college and must maintain a 2.8 or
better grade point average. Therefore, while the subsidies help meet JOBS
participants’ housing needs, they also provide an incentive for higher academic
accomplishment.


Customized Support Services Encourage JOBS Pa~”cipant.s to Attend EUucation and
fiaining I%3grams

The JOBS agency in Pittsburgh, Pennsylvania and a local vocational school
cooperatively provide customized support services to meet the needs of JOBS
participants and their children. The program, at Forbes Road East Area Vocational
Technical School, used Federal grants to contract with a private bus firm to transport
JOBS participants and their children from six “pick-up” sites in the Pittsburgh area to
the vocational school. The JOBS agency in Pittsburgh funds transportation by public
transit to and from the pick-up sites. The Forbes School also provides on-campus
child care. Such convenient child care enables JOBS participants to concentrate on
their training rather than on the care of their children. According to Pittsburgh JOBS
administrators, these customized support semices enable about 50 JOBS participants
annually to attend education and training that might otherwise be unavailable to them.




                                            11

             APPENDICES:
COMMUNITY PROGRAM PROFILES


APPENDIX A   EDUCATION PROGRAMS

APPENDIX B: JOB SKILLS TRAINING

APPENDIX C   JOB READINESS TRAINING
                            APPENDIX                  A

               EDUCATION                     PROGRAMS

                               Claremore, Oklahoma
                           Educational Opportunity Center

The Oklahoma Department of Human Services has a cooperative agreement with an
educational outreach program at Rogers State College to provide various education
services for JOBS participants. The program at Rogers State is an Educational
Opportunity Center funded by the U.S. Department of Education. The center serves
JOBS participants in 23 counties in eastern Oklahoma. The center makes it possible
for participants to gain access to adult basic education, general educational
development (GED) preparation courses, vocational-technical schools, junior colleges,
and universities.


l?ogram Effectiveness

The center has been effective in preparing JOBS participants for employment,
according to officials at the Oklahoma Department of Human Services. During the
State fiscal year ending June 30, 1991, the Rogers County JOBS agency placed 76
participants in employment (about 38 percent of an estimated 200 JOBS participants).
This exceeded their goal of 42 placements. These placements are particularly
significant because they all resulted in AFDC case closures, and thus, program savings.


Another result in Rogers County, during the same fiscal year, is that about 30 JOBS
participants obtained their GED certificates--enhancing their potential for
employment.


I%gram Effectiveness Attributed to Cooperation Between JOBS Agencies and Various
Educatiimd Ihktutions

Local JOBS officials attributed the center’s success largely to a strong cooperative
relationship between county AFDC and JOBS agencies, and educational institutions in
the eastern region of the State. To illustrate, the 23 county JOBS coordinators first
assess JOBS participants’ needs and refer them to the appropriate Educational
Opportunity Center office. The center then provides a central linkage to the eastern
Oklahoma educational institutions which serve JOBS participants. In cooperation with
the center, the institutions evaluate JOBS participants’ academic abilities and assists
them in career planning, applying for financial aid, and enrolling in their selected
educational facilities.



                                         A -1

Indicative of effective coordination among local agencies, GED classes have been
established in communities throughout northeastern Oklahoma. The center was
instrumental in documenting a widespread need for daytime classes. The classes are
sponsored by the State’s Department of Human Services and the Department of Adult
and Continuing Education. Improved access to GED classes is key for many JOBS
participants earning a certificate, and ultimately obtaining employment.


Bamportation for JOBS Pa~”c@ants Enhanced F%ogramE#ectivene.w

To allow JOBS participants to take advantage of the educational opportunities
available to them, the center and JOBS officials have arranged transportation to
various facilities and services. In Rogers county, for example, a vocational-technical
school furnishes buses to transport JOBS participants for GED classes and job skills
training. Without such transportation assistance, many JOBS participants would be
unable to get to the educational facilities where services are available.

Contact Person:	     Maggie Box, MSW
                     Department of Human Services
                     219 South Missouri
                     Claremore, OK 74017
                     (412) 565-2338




                                          A -2

                            Clovis and Portal%   New Mexico
                                     Project Forward

JOBS officials in Clovis and Portales coordinate a wide range of education and
training services under Project Forward, the State’s JOBS program. The local
program includes (1) courses leading to a high school diploma or GED certificate, (2)
courses in English, math, and reading to prepare for college level study, (3) courses
leading to a 2-year degree in one of 25 disciplines, and (4) courses leading to a 4-year
degree in various fields. Project Forward offered educational opportunities at these
levels to over 550 JOBS participants in two rural counties during 1991.


hgram    Effectiveness

According to New Mexico Department of Human Services administrators, the Clovis
and Portales program has been very effective. The local education program was
initiated in April 1990, and by the end of the 1991 summer quarter, 17 JOBS
participants had graduated from a local university. Further, most of the graduates
found employment.

Also, by the end of the 1991 summer quarter, 78 participants had earned GED
certificates and 28 had earned 2-year degrees. At that time, 26 participants who were
enrolled in a work experience program at the university had obtained employment.
These participants’ earnings enabled them to be self-supporting, and their AFDC
cases were closed.


Rogram Effectiene.w Attributed to Cooperation between Local Agena”m and
liklucational Institutions

Local JOBS administrators operate Project Forward as a partnership between several
agencies, including JTP~ two county AFDC agencies, a community college, a
university, and the U.S. Department of Housing and Urban Development (HUD).
Through the partnership arrangement, JOBS participants can pursue educational
levels appropriate to their abilities and obtain financial assistance for education, child
care, and housing.

The university supports JOBS participants by providing counseling and academic
advisory services. The university provides free tutoring and professional counselors to
help participants with personal problems. In recognition that a JOBS participant’s
perspective is generally different from that of a traditional student, the institution also
conducts a modified version of their freshman orientation course. The special course
is designed to help participants and other non-traditional students get off to a good
start in their educational programs.




                                           A -3

Suppoct Services Enhance Partic@ation in JOBS I?-ogram

The Project Forward program administrators have effectively arranged child care and
housing subsidies for JOBS participants. The Project Forward program administrators
provide the support semices in a manner that does more than just allow participation.
The program stimulates and encourages participation and high achievement in
education activities.

To mitigate a shortage of available child care providers, the JOBS agencies in Clovis
and Portales have taken several actions. First, JOBS administrators negotiated with
two educational institutions to establish on-campus child care centers. Second, they
made it more attractive for child care providers to accept JOBS participants’ children.
The JOBS agencies did that by (1) making disbursements for services directly to child
care providers rather than to JOBS participants, and (2) expediting disbursements so
that providers received them within the first 10 days of each month.

The JOBS agencies in Clovis and Portales have also arranged for certain JOBS
participants to have access to housing subsidies from the U.S. Department of Housing
and Urban Development (HUD). In both communities, HUD defrays housing
expenses for JOBS participants who meet special academic-based criteria. For
example, a participant must have completed two years of college and must maintain a
2.8 or better grade point average. Therefore, while the subsidies help meet JOBS
participants’ housing needs, they also provide an incentive for higher academic
accomplishment.

Contact Penon:	      Mark Gray
                     New Mexico Human Services Department
                     Curry County
                     Income Support Division
                     1621 Sutter Place
                     Clovis, NM 88101
                     (505) 762-4751




                                          A -4

                                Salt Lake City, Utah
                                Teen Parent Program

Salt Lake Community High School offers a high school completion program especially
designed fore~ectant    mothers andyoung parents--Teen Parent Program. The
program offers a concentrated curriculum of English, math, history, social studies,
geography, science, business education, occupational child care, homemaking, and
consumer education.


I?ogram Effectivemxs

Twenty-eight JOBS participants were enrolled in the program as of June 1991. By
December 1991, 11 were still enrolled and 13 had graduated--11 of whom were
pursuing higher education. Four had obtained full-time jobs.


Foaring on Special Needh of Teen Paren@ Is Kq to I%ogram Efiectiveniw

The program and JOBS staff give special attention to participants through individual
counseling on educational and personal matters. The program staff helps participants
plan for their future and that of their children. Also, JOBS participants are allowed to
enroll at any time during the school year, and attend classes on a flexible schedule.
Staff from the JOBS program and the school cooperate and coordinate their efforts to
help teen parents. For instance, the school actively participates as a member of the
local JOBS/AFDC coordinating council. Further, a school counselor acts as a support
person and linkage between teen parent participants and various other community
services. The teen program offers prenatal and parenting classes, and information on
nutrition. Some participants stated that the parenting class was a major reason they
stayed in the program. Further, participants said that help in getting control of their
personal lives enabled them to do better academically.


On-Site Child Care Enhances Participation

Salt Lake Community High School provides an important support service for JOBS
participants by operating an on-site child care center. Aides, volunteers, and peer
parents help take care of the children. Each parent with a child in the child care
center is assigned to work there one hour each week. Importantly, the center
accommodates all of a participant’s children, including infants. The staff provides
activities designed to stimulate the mental and physical growth of each child,
considering his or her age. The staff gives special attention to the unique needs of
children. For instance, the special care and attention given to one child who had
seizures allowed the mother to graduate from high school and enroll in a community




                                          A -5

college. On-site free child care eased participants’ anxiety regarding their children and
helped JOBS participants stay in school.

Contact Penon:	      Barbara Floisand

                     Teen Program Coordinator

                     Salt Lake Community High School

                     180 North 300 West

                     Salt Lake City, UT 84103

                     (801) 533-3015





                                           A -6

                                 Winter Parlq Florida

                               The Teen Parent Program


The Winter Park JOBS agency coordinates the Teen Parent Program--a program
designed to prevent pregnant and parenting teens, ages 14 through 19, from dropping
out of school. To help parenting teens obtain ahighschool       diploma orGED
certificate, program staff assess their skills and provide counseling and advice on
educational programs. Participants in the program attend classes at an educational
level appropriate for each individual--from middle school to vocational skills training.
The Winter Park program serves about 200 teens per year from throughout Orange
County Florida.


I?ogram Effectivenixr

The program has been very effective in reducing an alarmingly high dropout rate
among teens in Orange County, according to the Florida Department of Health and
Rehabilitative Services. JOBS officials said, for example, that during Fiscal Year 1990,
129 teen participants returned to school--a monthly dropout retrieval rate of about 11
percent. Due to their success in preventing high school dropouts and reducing
absenteeism, the Teen Parent Program staff were recipients of a 1990 Davis
Productivity Award. The awards are given in recognition of significant performance
improvements by Florida State workers.

A notable number of participants in the program have obtained employment, a high
school diploma, or GED certificate. During Fiscal Year 1990, 43 of 200 participants
(about 21 percent) obtained employment (about half the jobs were full-time). Forty-
six of 200 participants (about 23 percent) obtained a high school diploma or GED
certificate. Of those, about 25 continued their education at a vocational school,
community college, or 4-year college.


I?ogram Effectivenew Attributed to Cooperation Between Various State and COW
Agencies

Strong cooperation and coordination between State and local agencies are largely
responsible for the success of the Teen Parent Program, according to local JOBS
officials. The community program administrators formed an advisory committee
composed of staff from schools and agencies which serve JOBS participants. Through
such linkages between the JOBS agency, other State and local agencies, and local
schools, the JOBS staff has effectively helped participants overcome barriers to high
school education. For example, JOBS counselors have coordinated with school
officials to periodically meet with participants at school to monitor their progress and
help them solve problems. The JOBS agency also has arranged special group
appointments with the local Health Department for students receiving prenatal care,
thereby lessening absenteeism from school. The staff from at least one school


                                           A -7
provides transportation to the Health Department   and otherwise ensures that
participants keep their appointments.


Suppcut Services Enhance Participation in JOBS l?ogram

The Orange County JOBS administrators told us that financial support was critical to
teen participation in the program. Accordingly, the JOBS agency provides assistance
for child care and transportation, and helps participants meet their other essential
needs.

For example, the Florida Department of Education and JTPA agency provide funding
for child care. Likewise, the JOBS agency provides gasoline allowances for private
transportation and bus tickets for public transportation. Such financial support is
essential for JOBS participants to attend school regularly and graduate--according to
local JOBS administrators.

The Teen Parent Program also supports JOBS participants by helping them meet
other essential needs. When necessa~, the JOBS staff obtains food, clothing,
furniture, or temporary shelter through churches and other local resources. In some
instances the staff has prevented absenteeism by providing maternity clothes to
participants, enabling them to meet school dress codes.

Contact Person:	    E. Ann Brookby
                    Human Services Counselor Supervisor
                    Health and Rehabilitative Services
                    State of Florida
                    941 W. Morse Boulevard, Suite 243
                    Winter Park, FL 32789
                    (407) 740-4702




                                         A -8

                             APPENDIX                   B

                 JOB SKILLS TRAINING

                                  Beatrice, Nebraska
                                  Parents of All Ages

Parents of All Ages is a job skills training program which the Nebraska Departments
of Social Services and Labor sponsor, in collaboration with Southeast Community
College. This is an 8-week residential summer program to provide JOBS participants
from throughout the State a broad-based foundation for future employment and
education. Participants and their children are relocated to the college campus and
housed in dormitories during the program.

Participants in the program learn word processing and other computer skills. They
also study related subjects such as, business math, business English, human relations,
and office courtesy. The training prepares them for clerical and similar jobs in
industries such as banking and insurance. They also learn job search skills-­
interviewing, writing resumes, and dressing for success. The curriculum includes
courses and workshops on parenting, personal financial management, and building
self-esteem.


l?ogram Effectiveness

The Parents of All Ages program defines participants’ success, after completing the
program, as having a job or furthering their education. Administrators set a goal of
achieving a 75 percent success rate.

An evaluation of the 1989 8-week session revealed successes and improvements for the
training participants and their children. For 30 participants who graduated from the
program, the rate of success was 83 percent. That rate was based on their status 5
months after the training session. Further, income increased for 57 percent of those
first participants. Although on average, a participant’s household earnings were still
below the State’s minimum cost-of-living level ($719 per month). In addition to
participants’ successes, 67 percent of their children improved in such areas as
discipline, self-confidence, and scholastic grades.

After the 1990 8-week session, 14 of 23 participants enrolled in a college program in
or near their home community. Most of them received student financial aid in the
form of Pen Grants.

Twenty-three (43 percent) of the 53 participants from the 1989 and 1990 programs
have obtained employment.



                                          B-1

Interagency Cooperation Kq to lMablMing Effective ~am

The Parents of All Ages program requires significant cooperation and coordination of
activities by the sponsoring agencies and the host community college. The sponsoring
agencies and the college provide a combination of funds, facilities, and other resources
necessary for JOBS families to participate in the program. A core group of staff plan
and coordinate implementation of the program, including weekly meetings while
training is being conducted. Further, because participants and their children are
housed at the training site, participants may concentrate fully on their training without
undue concern for their children. They are not isolated from their children, but are
placed in a self-contained environment which is tailored to their needs.


Com~ehemive     Support Services Enhance I?ogram Effectiveness

Successfully training JOBS participants and conducting activities for their children
requires comprehensive support services--temporary moving expenses, housing, child
care, youth activities, medical care, and local transportation.  The sponsoring agencies
and the college collectively provide those services, either directly or by using other
organizations.

Program officials use various means of providing support services. While JOBS
participants are in classes, infants and children up to age 6 are in a child care facility.
Children ages 7 through 13 attend a YMCA day camp, and those 14 or older are
employed by the JTPA Summer Youth Program. The college provides vans for
transporting children to child care, the YMCA and other family activities. To provide
medical care for participants and their children, program officials contract with a
physician’s assistant for general medical services. They also arranged for a local
Community Action Agency to provide child care for children who are ill. Without
such assistance, contending with medical problems such as chicken pox, influenza, and
various injuries could cause JOBS participants to discontinue participation in training
programs.

Contact Person:	      Ardi Korver
                      Community Resource Development Coordinator
                      Nebraska Department of Social Services
                      RR 2, BOX401
                      Beatrice, NE 68310
                      (402) 223-6019




                                           B-2

                                 Bostoq Massachusetts

                         Training Inc./Greater Boston YMCA


The Massachusetts Department of Public Welfare refers JOBS participants in Boston
to Training, Inc., founded by the Greater Boston YMCA for job skills training. The
program is administered through a contract arrangement between the Department of
Public Welfare, Bay State Skills Corporation (a quasi-public corporation), and
Training, Inc. In short, the Bay State Skills Corporation, established by State law,
facilitates cooperation between government agencies, industry, business, and
educational institutions to provide skills training programs. The corporation is a
conduit for grants from public agencies to educational and training institutions. Such
grants must be matched by private sector financial support.

Training, Inc. provides training in filing, bookkeeping, business math, word processing,
office procedures, and telephone courtesy. Participants also learn about human
relations, the importance of developing a positive attitude, and career development.

Between July 1, 1989 when the Department of Public Welfare implemented the
program and June 1991, approximately 372 JOBS participants had received job skills
training. Training, Inc., however, has trained economically disadvantaged persons for
over 8 years, mainly AFDC recipients and public housing residents.


IYogram Effectiveness

In 1990, Training, Inc. graduated 150 of its 200 program participants. About 66
percent of graduating participants found full-time jobs with benefits. Their average
starting salary, as of September 1990, was $8.23 per hour. In addition, 15 percent of
1990 graduates have pursued college degrees.

In 1989, about 87 percent of Training, Inc. graduates found employment. According
to local JOBS officials, the 1990 employment statistics were lower due to an economic
recession and a 10 percent unemployment rate.


In&vidualiz~   “Hand@n”     Approach Important for Effectiveness

The training focuses on developing technical, social and life skills for each participant.

Depending on their individual needs, JOBS participants are provided training in

assertiveness, self-confidence, job search techniques, and living without public

assistance. Each participant is assisted in developing an employment plan tailored to

their particular needs. The staff from the local JOBS agency and Training, Inc. design

the plan jointly. The plan includes goals, timetables, and projected skills requirements

for each participant to obtain a job. It also includes criteria for determining individual

performance--attendance,     work habits, cooperation, attitude, and behavior. As

training evolves, the staff evaluates participants’ actual performance and counsels them



                                           B-3
on how to improve. The counseling includes, for example, individual assistance in the
use of cosmetics and general good grooming.

A recruiter from one firm that has hired many graduates of Training, Inc. said, “I have
been most impressed with the level of commitment and personal interest of the
Training, Inc. staff. Sometimes that individual attention makes all the difference in the
world!”

The program uses a “hands-on” approach in teaching JOBS participants various skills.
For example, classes are conducted in a simulated office setting where JOBS
participants can practice newly taught skills. The training site is converted into a
model of a hotel supply company and JOBS participants assume a position in one of
six departments. This allows them to become aware of how others in a work
environment depend upon each individual’s work contribution. Participants learn to
double check their work for accuracy and to correct their own errors. Finally, the
training includes informative field trips to private companies and mock employment
interviews. These interviews, conducted by representatives from the private sector,
give JOBS participants realistic interviewing experiences.


l%vate Sector Supprt Enhanced i%aining1%-ogramQuulity S&ni!ant&

The program partially relies on support from private entities. For example, as of 1991

IBM had provided $200,000 worth of hardware (computers, printers, typewriters, etc.),

software, and staff training. Likewise, Lotus Development Corporation had sponsored

five Training, Inc. internships, and provided financial support, assistance with

curriculum development, and Lotus 1-2-3 software.


The private sector also supports the program in other ways. More than 200 employers

have provided employment for graduates of the program. Some employers also

provide staff to teach evening classes such as job search. Employers periodically host

luncheons to welcome graduates into the business world.


The program also relies on volunteers for assistance. Volunteers support Training,

Inc. by serving as tutors, advisors, job search coaches, employer liaison, or fund-raisers.

Some volunteers are graduates of Training, Inc. As of 1991, over 60 volunteers from

40 Boston companies had shared their knowledge and technical expertise by designing

and teaching classes, and presenting workshops. Volunteers contribute over $70,000 in

work hours annually.


Contact Person:	     Paul J. Provencher, Director
                     Employment and Training Program Management
                     Massachusetts Department of Public Welfare
                     180 Tremont Street
                     Boston, MA 02111
                     (617) 574-0157


                                           B-4
                                 Hartfor~     Comecticut
                           Entrepreneurial    Training Program

The Entrepreneurial Training Program is designed to teach business skills to AFDC
recipients. The aim of the program is to provide necessary knowledge and self­
-confidence to JOBS participants to enable them to become self-employed. The
training program is financed by the Connecticut Department of Income Maintenance,
and it is based at Hartford College for Women.


1%.qyam Eflectivenew

For the period March 1, 1988 through June 30, 1991, 64 of 91 participants (70
percent) graduated from the program. Forty-five percent of graduates became self-
employed. Forty percent got jobs after realizing that self-employment was not their
best option. Five percent enrolled in another educational or training program to
better prepare themselves for self-employment. Five percent were refining their
business plans, and five percent were unaccounted for.


Cooperation and Supprt of Local Businew Commun ity Helped l?epare JOBS
Partic@ants for Se&Empl@ment

The Entrepreneurial Training Program relied on resources from the Hartford

Economic Development Corporation, Connecticut National Bank, and various business

associations, such as the Chamber of Commerce and the National Association of

Professional Service Women. Cooperative agreements with such organizations provide

JOBS participants access to workshops, conferences, and other special events.

Further, staff from such organizations voluntarily teach technical business courses,

provide support and technical assistance, and seine as mentors for JOBS participants.

For example, staff of the Hartford Economic Development Corporation provide

individual counseling and assistance to JOBS participants on preparing their business

plans, completing loan applications, and solving business problems. Staff of the

cooperating firms continue their consultations and general support of participants for

up to 6 months after graduation.


The program includes three phases. The first consists of a self-assessment session and

an orientation session (two and one-half hours each). The second is a 23-week phase

during which JOBS participants receive training in negotiating skills, communications,

finance, and balancing personal and business responsibilities. The third phase lasts up

to 6 months and focuses on a business plan written by the JOBS participants. The

business plan is very important. It details how a participant’s proposed business will

operate and market its products or services. The plan is a key part of securing

financing for a participant to start a business.





                                             B-5

Throughout the almost year of training and after graduation, the program provides

individual counseling and networking. Participants interact with their peers,

established business persons, and other professionals. This process is formalized by

requiring participants to attend weekly peer support meetings throughout training, and

for 4 months after graduation.



Innovative Business Loan l%ogram Imptoves Partic@ant# Chances to Succeed

The Hartford Economic Development Corporation and Connecticut National Bank
developed an innovative loan program to provide start-up capital for JOBS
participants who complete the training program. To qualify for the loans, participants
must have graduated and must have a detailed business plan approved by the
Hartford Economic Development Corporation. These requirements replace
traditional requirements that a borrower have collateral and a sound credit history.
Generally the loans, made by Connecticut National Bank, range from $5,000 to
$10,000. The loan repayment plan allows interest-only payments for the first year of
the loan.

Contact Person:	     Pamela Bacon
                     Planning Analyst
                     Department of Income Maintenance
                     110 Bartholomew Avenue
                     Hartford, CT 06106
                     (203) 566-8868




                                         B-6

                               Pittsburgh, Pennsylvania

                  Forbes Road East Area Vocational Technical School


The Forbes Road East Area Vocational Technical School provides job skills training
to about 50 JOBS participants in the Pittsburgh area. The school offers 25 vocational
and technical programs designed to meet current labor market demands.

Program administrators stress the importance of female JOBS participants taking
advantage of career opportunities which have traditionally been taken by males. Some
examples are careers in electronics, auto body repair, machine shop technology, meat
cutting, and welding. Such occupations frequently offer higher wages and better
benefits--two critical factors for single parents (usually female) attempting to become
self-supporting.

The Forbes program offers preliminary vocational interest testing and an opportunity
to explore several potential careers before selecting a vocation. Career exploration,
such as monitoring up to six vocational classes in which participants have an interest,
has improved participants’ motivation and attendance. The testing and exploration
are available through cooperative efforts of the JOBS agency, Pennsylvania Job
Service, JTP~ and Forbes.

In addition to the vocational-technical   curriculum, Forbes offers adult basic education,
GED classes, and adult literacy.


l%ogram Eflectiverws

According to JOBS administrators, the Forbes program has produced positive results.

Approximately 65 percent of the participants have found and retained employment,

with entry level wage rates as high as $10.00 per hour. Some participants have

attained jobs as machinists, patient attendants, meat cutters, and printers. Also, during

the school year 1989-90, 100 percent of participants who took GED tests passed.

Eighty-five percent of those in GED and adult basic education classes have increased

their skill levels by two grades. Finally, parents became more active in the education

of their children, demonstrating an interest in family literacy. For instance, in the

child care center at Forbes, parents work directly with their children under the

supervision of a reading specialist.



Comprehensive Suppott Senalxs Enhance I?ogram Parh”apation

The Forbes program provides comprehensive support services, which help JOBS
participants make a successful transition to employment. For example, Forbes--using
Federal grants--has contracted with a private bus firm to transport JOBS participants
to training from six sites around Pittsburgh. The local JOBS agency provides
transportation funds when necessary for getting participants to and from the pick-up


                                            B-7
sites. Using this combined transportation  system, participants and their children have
access to training and child care which might otherwise be unavailable.

Forbes also operates a child care center on campus. This arrangement is convenient
for JOBS participants and enables them to concentrate on their training because their
children are receiving quality care nearby. The care center is distinguished as a
“Pennsylvania Governor’s Model Facility.” The school operates the center in
conjunction with its Child Care Training Program, which trains students to become
child care professionals.

Finally, the Forbes program provides group support sessions for JOBS participants
three times per week. The sessions include job preparation and search, stress
management, and budgeting classes. This continuous support, in combination with job
skills training, is designed to eliminate many problems, deficiencies, and barriers that
JOBS participants face in obtaining employment.

Contact Person:	     Pauline R. Abdullah
                     Allegheny County Assistance Office
                     Room 608, State Office Building
                     300 Liberty Avenue
                     Pittsburgh, PA 15222
                     (412) 565-2338




                                            B-8

                             APPENDIX                   C

            JOB READINESS                           TRAINING

                                 Bostoq Massachusetts
                              Assisted Placement Program

The Massachusetts JOBS program contracts with the Boston Housing Authority for
jobreadiness training andvatious other jobtraining andplacement sefices. The
housing authori~has   protided jobtraining andplacement seticesfor8   years. The
Assisted Placement program serves JOBS participants under a performance-based
contract which has been in effect since 1989.

Theprogram offers various ~esofjob           readiness training ina workshop format. One
training module focuses on participants’ options and outcomes, self-awareness, fear of
failure, and attitudes. Another module includes training on getting along with
supervisors, establishing relationships with co-workers, and gauging one’s performance.
The training staff illustrates parts of this module with sample situational problems.
Another module provides training on good employee characteristics, including
developing good work habits, managing employee time, and balancing work and family
responsibilities.

While a participant receives job readiness training, the contractor determines whether
the individual is ready for job placement. If so, the individual may be placed in a job
directly from the job readiness component. If not, the participant is typically enrolled
in additional training to further prepare for employment.


l?ogram Efiectiveiws

The primary objective of the job readiness component is for participants to obtain a
job that pays a minimum of $12,000 annually with health benefits or a minimum of
$14,000 annually without health benefits. Participants must retain the job for at least
30 days to be “successful.”

The program has been quite successful in placing JOBS participants in employment,
according to local JOBS administrators. In 1989, the program served 667 participants
and placed 586 (88 percent). In 1990, it served 784 and placed 686 (88 percent). And
in 1991, it served 858 and placed 732 (85 percent).




                                          c-1
Focus on Indviduul Pdc@aru3’    Needk Key to Eflectivenins

One important aspect of the Assisted Placement Program is its responsiveness to the
individual needs of JOBS participants. It offers flexible hours and flexibility in the
selection of a training plan which accommodates JOBS participants’ personal and
training needs. For example, the housing authority provides job readiness training as a
single activity or in combination with other activities, such as job skills training or
subsidized work activities. Further, participants can enroll or exit the program at any
time during the course of training--for instance, to be placed in a job. Another
important way that the housing authority effectively accommodates participants’ needs
is by providing on-site counselors.

The housing authority’s reaction to a 32-year-old JOBS participant whose young son
had special health needs illustrate how the training and counseling is focused on
individual needs. This JOBS participant had made two unsuccessful attempts to
complete clerical skills training. She had been unable to cope with the demands of
her son and her own developmental needs. The Assisted Placement Program staff
had projected that she could complete job readiness training and 7 weeks of intensive
computer training, and ultimately secure full-time employment. During training, she
encountered serious personal obstacles, including two health crises and academic
problems. These barriers threatened to cause her to fail again. However, the housing
authority program staff provided close contact, frequent counseling, and effective peer
support. As a result, she completed training and obtained full-time employment,
where she earned $16,000 annually.

Contact Person:	     Rosemary Evans
                     Program Manager for Assisted Placement Program
                     Massachusetts Department of Public Welfare
                     180 Tremont Street
                     Boston, MA 02111
                     (617) 348-5930




                                         c-2
                                   Cincinna@ Ohio

                             Queen City Vocational Center


The Hamilton County JOBS program has an effective, cooperative arrangement with
JTPA and the Cincinnati Public Schools. JTPA is a key sponsor of the program,
providing funding for some of the staffing. Under the arrangement, JOBS participants
receive job readiness and pre-vocational training at Queen City Vocational Center.

The curriculum at the center differentiates between two related types of training. Job
readiness training focuses on personal resource management, employability, and job
search skills, while pre-vocational training focuses on participants’ goal setting, life
skills, and critical thinking.

The center offers several adult skills training programs which incorporate job readiness
activities and pre-vocational training. One such program is called “Transitions.” That
program provides JOBS participants pre-employment personal development and
career exploration. The program is divided into three l-week modules--Self-
Awareness, Tools and Job Search Strategies, and “The Game Plan” and Interviewing
Techniques. The material is presented through lectures, group discussions, role-
playing, video taping, field trips, and mock interviews.

JOBS and JTPA officials also incorporate job readiness activities into job skills training
programs which Queen City Vocational Center conducts. For example, the three job
readiness modules on self-awareness and job-seeking are incorporated into the job
skills training. The respective modules are presented at the beginning, middle, and
end of the job skills training. This approach helps JOBS participants realistically link
job-seeking to a specific vocation.


hgram    Efieclivenas

Local officials reported positive results for Queen Center Vocational Center trainees
in general, but they could not provide specific information on JOBS participants.
For 1990, they reported an overall trainee job placement rate of 75 percent. The
estimated average wage rate for those trainees was $6.00 to $6.15 per hour. For 1991,
officials reported gains in the employment status among trainees in the Transitions
program specifically. The center’s statistics were based on changes in trainees’ status
during the year. Of 432 trainees, 79 were employed at the beginning of the year. At
the end of the year, 137 were employed--a 73 percent increase. There was also a
remarkable increase in the number of trainees with full-time employment. At the
beginning of the year, there were 13. By year’s end, 137 were employed
full-time. Additionally, among those 432 trainees, 29 were able to have their public
assistance cases closed.




                                          c-3
Interagency Clmperation Enhances Availability of Job Readbzess ~abzing

Due to cooperation between the JOBS program and various other agencies in
Cincinnati, JOBS participants have access to the resources of multiple government
agencies. Child care resources are available through funds from the Hamilton County
Department of Human Selvices and a grant from the Ohio Department of Education.
For transportation, most JOBS participants receive a stipend from the JTPA or JOBS
agency. The Queen City Vocational Center itself is a result of cooperation between
the school system and the city and county employment and training agencies. Thus,
JOBS participants have access to a comprehensive adult training institution, which has
historically accommodated economically disadvantaged persons.


~am     Effectivenas Lmgely Attributed to Focus on Indvidual Partic@ants’ Needs

One of the most essential characteristics of the Queen City Vocational Center
program is that it is tailored to participants’ individual needs. There are several ways
the program and the training staff at the center accommodate JOBS participants’
needs. So that JOBS participants do not lose time or remain idle for long periods,
they can begin training at any time of a year. To encourage individual growth and
group interaction, training seminars are designed for approximately 10 participants.
Also, individual counseling is an integral part of job readiness training. Staff
counselors help JOBS participants develop ways of coping with their unique problems
and needs. They also convince participants that they have personal and career choices
available. The counselors show them ways to use their abilities to get the most from
their training experience and to attain their goals.

Importantly, the training staff at the Queen City Vocational Center are qualified to
meet many of the individual needs of JOBS participants. For example, the staff has
skills in child development, parent education, group facilitation, and teaching
techniques for adults with limited learning skills. Their approach emphasizes active,
hands-on learning.

Contact Person:	     Linda Meyer
                     Hamilton County Department     of Human Services
                     100 East Eighth Street
                     Cincinnati, OH 45202
                     (513) 763-4697




                                         c-4

                                 Ft. Myers, Florida

                         Employability Skills Training Program


Through a cooperative arrangement, the Lee County JOBS agency refers JOBS
participants to a 3-week employability skills training program operated by JTPA. The
program, which seines approximately 45 JOBS participants at a time, includes 1 week
of employability instruction and 2 weeks of job search. During the training,
participants learn how to successfully complete an employment application, write a
resume, and conduct themselves during an interview. This program also includes the
identification of potential employers for participants to contact.

The employability skills training is designed for JOBS participants whose goals are
entry level jobs requiring relatively low level skills, and for participants who are re-
entering the labor force. The training includes a focus on each participant’s attitude
and extent of motivation.


I?ogram Effectiveness

Lee County’s Employability Skills Training Program is a part of a larger program (Job
Club) designed to teach JOBS participants how to search for, apply for, and keep a
job. Information was not separately available showing the results of the employability
skills program, but local JOBS officials said the program has resulted in significant job
placements. Local JOBS officials estimate that for 1989, the larger program trained
 356 participants and placed 226 (63 percent) in employment. In 1990, 305 were
trained and 171 (56 percent) placed. In 1991, 289 were trained and 130 (45 percent)
were placed. Local JOBS officials consider these results to be very encouraging, even
though placements had been higher prior to the last three years. The Lee County
JOBS officials attribute declining placements largely to an increase in participants who
need more extensive training in order to reach a stable employment goal.

In addition to job placements, the local JOBS program has motivated participants and
enhanced their self-confidence and ability to set realistic goals. Two JOBS participants
illustrate realistic goal-setting. One participant acquired a stable job as a custodian in
a local high school. The participant had two basic considerations in selecting such
employment as her goal. They were (1) her limited academic skill level (below
seventh grade), and (2) two years of work experience as a resort housekeeper.
Similarly, another participant, a high school graduate, obtained employment as a
transcription clerk in a hospital. Her decision was based on her previous work as a
cashier and as a receptionist. Both participants took advantage of job leads and
motivational counseling received during their employability training.




                                           c-5
Interagency Coopenztiim Key to Effectiveruw

Cooperation between the JOBS agenq and JTPA is key to making job readiness
training available to JOBS participants. That cooperation is the basis for local JOBS
participants having access to JTPA training slots and funds. Interagency cooperation
is also key to (1) JTPA’s assessment of participants’ skills levels, (2) effective
counseling services, and (3) effective case management for participants.

At the beginning of the program, JTPA assesses each participant’s basic skills and job
interests. The assessment results are given to participants before they complete the
employability training program. Depending on the results, participants are provided
additional training, including on-the-job and remedial training. Participants assessed to
be candidates for technical training or college courses also have those opportunities
available through the program.

To ensure appropriate counseling and effective case management for each participant,
JOBS and JTPA staffs frequently hold joint meetings to plan and coordinate activities
for JOBS participants. Additionally, counselors from both agencies work jointly with
participants on a weekly basis. Counselors use a support group approach in an effort
to improve participants’ attitudes and their prospects for employment.

Considering the increase in participants who need more extensive training, effective
cooperation between JOBS and JTPA has become even more critical. However, local
JOBS officials said their coordinated systems and procedures have remained adequate
for effectively meeting JOBS participants’ training needs.


Ex@nsive Support Sen.ices Enhance Eflectivemns

The local JOBS agency arranged for participant access to extensive support services,

including child care, transportation, and housing subsidies. The JOBS staff coordinates

child care services through a contracted, not-for-profit agency. That agency provides

child care resources, referrals, and placement. JOBS provides transportation

assistance in the form of public transportation tickets and gasoline allowances.

Although all JOBS agencies are required to guarantee child care and transportation,

Lee County JOBS officials said successfully arranging such services has had the most

impact on program effectiveness.


To assist JOBS participants in fulfilling their housing needs, the U.S. Department of

Housing and Urban Development worked cooperatively with JTPA by providing a

subsidized housing grant. The agency approved housing certifications for selected





                                          C-6

JOBS participants needing training for6months   or longer. The subsidies are
designated for those whose only remaining impediment to entering the training is the
lack of housing.

Contact Penron:	    Greg A. Frohnappel

                    Human Services Program Supervisor

                    Florida Department of Health and Rehabilitative   Services

                    P. O. BOX06085

                    Ft. Myers, FL 33906

                    (813) 338-1371





                                         c-7
                           Janesville and kleloi~ Wisconsin
                            Rock County JOBS Program

The Rock County (Janesville and Beloit) JOBS program provides a motivational and
career development workshop for JOBS participants. The purpose is to enhance
participants’ employability. The local JOBS agency provides the workshop through
contracts with the Wisconsin labor department’s Job Service Division and Cooperative
Education Sewices Agency (a private contractor).

Wisconsin’s Job Service Division enrolls JOBS participants and gives them an
orientation on program services. The orientation includes (1) information on
education, training, and placement services as well as support services such as child
care and transportation, and (2) an assessment of each participant’s skills and
employment interests. If the job service staff determines JOBS participants not to be
job-ready, they refer them to a motivational workshop.

The Cooperative Education Services Agency operates the workshop, a 100-hour
program spread over a 5-week period. To motivate participants toward entering the
job market, workshop facilitators help them learn to believe in themselves, balance
family life with job commitments, and understand the importance of being on time for
work. The workshop helps JOBS participants increase self-awareness, explore career
options, and improve communication skills. To improve communication skills, the
workshop includes training in writing, speaking, and listening. The workshop also
teaches them how to control anger and get along with others. In 1990, 220
participants enrolled in the motivational workshop.


Rqyam    Effectiveness

Local JOBS administrators did not have statistical data showing numbers of JOBS
participants obtaining employment. They told us, however, that most JOBS
participants who complete the workshop pursue additional training. The participants
frequently enroll in technical training which lasts up to two years. Many workshop
graduates are still in technical schools. Of those JOBS participants who have
graduated from a technical school, local JOBS administrators estimate that 90 percent
obtain employment.

Further, local JOBS administrators attribute an increase in the number of participants
who earned GED certificates to the motivational workshop. Similarly, they stated the
workshop is largely responsible for a decrease in the dropout rate among remedial and
vocational students.




                                         C-8

Assktance with Chiiii Care Allows Particiition

To enable JOBS participants to attend the job readiness workshop and other
education and training services, the JOBS agency obtained the cooperation and
assistance of a local Community Action Agency in establishing child care providers in
private households.

A rural area of Rock County had a shortage of licensed child care providers--a barrier
to needy families participating in JOBS training. Further, some local residents who
could be trained and certified as child care providers lacked transportation to
certification training at a technical school, located outside their rural community.

To mitigate the problem, Rock County JOBS administrators and the local Community
Action Agency arranged to set up a certification training site in the rural community.
This innovative approach eliminated a transportation barrier for potential child care
providers. As a result, 21 people completed the child care classes in Fiscal Year 1990.
Some of these people are now active child care providers in the community. Further,
the in-home services they provided enabled JOBS participants to attend job readiness
training that was available to them through the program.

Contact Pemon:	      Bill Stahl
                     Rock County Department      of Social Services
                     P. O. Box 1649
                     Janesville, WI 53547
                     (608) 756-5255




                                          c-9
